WR-B-00-01




        AUDIT
       REPORT

                                 ANALYTICAL LABORATORY
                               CAPABILITIES AT THE HANFORD
                                           SITE




                                           NOVEMBER 1999




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                                   Department of Energy
                                                     Washington, DC 20585

                                                        November 23, 1999




MEMORANDUM FOR THE MANAGER, RICHLAND OPERATIONS OFFICE AND MANAGER,
OFFICE OF RIVER PROTECTION

FROM:                   Lawrence R. Ackerly, Regional Manager /signed/
                        Western Regional Audit Office
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Analytical Laboratory Capabilities at the Hanford
                        Site"

BACKGROUND

The Department of Energy (DOE) Richland Operations Office (Richland) was responsible for environmental
restoration and waste management programs at the Hanford Site (Site). In support of these activities Site
contractors used both on- and off-site analytical laboratory services. The objective of this audit was to determine
if Richland had made the best use of the capabilities of the on-site analytical laboratories.

RESULTS OF AUDIT

Richland had not made the best use of the capabilities of on-site analytical laboratories in two of five instances
reviewed. In one instance, Richland unnecessarily transferred tank waste vapor characterization from one on-site
laboratory to another. In another instance, Richland allowed contractors to use an off-site laboratory to analyze
groundwater samples rather than directing them to use a less expensive on-site laboratory with the same
capability. These conditions occurred because Richland (1) based the decision to transfer the vapor program on a
flawed cost analysis and (2) did not act timely on the
on-site laboratory's proposal to analyze groundwater samples. As a result of the transfer, Richland incurred
unnecessary costs of approximately $550,000. In addition, use of the on-site laboratory for groundwater samples
would allow better use of $525,000 annually. We recommended that Richland and the Office of River Protection
use the best available data when performing cost analyses and make timely decisions on proposals.

MANAGEMENT REACTION

Richland and the Office of River Protection agreed with the recommendations.
ANALYTICAL LABORATORY CAPABILITIES AT THE HANFORD
SITE

TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective.......................................................1


                 Conclusions and Observations ..............................................1


                 Utilization of Hanford Site Analytical Laboratory
                 Capabilities


                 Details of Finding.....................................................................3


                 Recommendations and Comments.......................................5


                 Appendices


                 Scope and Methodology.........................................................7


                 Other Matters............................................................................8


                 Related Office of Inspector General and Richland
                 Operations Office Reviews .....................................................9
Overview
INTRODUCTION      The Department of Energy (DOE) Richland Operations Office (Richland)
AND OBJECTIVE     was responsible for environmental restoration and
                  waste management programs at the Hanford Site (Site). These
                  responsibilities included identification and removal of soil and groundwater
                  contaminants as well as storage, retrieval, and
                  disposal of highly radioactive tank waste.

                  Hanford contractors used on-site and off-site analytical laboratory services in
                  fulfilling these responsibilities. The type and duration
                  of analytical services varied. For example, the duration of the tank waste
                  vapor characterization program was relatively brief. It began
                  in Fiscal Year (FY) 1994 and was largely completed in FY 1998; it
                  had a peak annual budget of $2,233,000 in FY 1996. In contrast,
                  groundwater monitoring analyses began in FY 1967 and was expected to
                  continue well after site closure, which was planned for 2046. The
                  FY 1999 budget for groundwater monitoring was $1,729,700.

                  Prior reviews had disclosed problems with the use of services
                  available at the Site (see Appendix 3). The objective of the audit
                  was to determine if Richland had made the best use of the capabilities of the
                  on-site analytical laboratories.
CONCLUSIONS AND
OBSERVATIONS      Richland had not made the best use of the capabilities of on-site analytical
                  laboratories in two of five instances reviewed. In one instance, Richland
                  transferred tank waste vapor characterization
                  from one on-site laboratory to another. The receiving laboratory, however,
                  had to acquire the capability to do the work. This resulted
                  in an unneeded expansion of laboratory capabilities. In the other instance,
                  Richland allowed the contractors to use an off-site laboratory to analyze
                  groundwater samples rather than directing them to use a
                  less expensive on-site laboratory with the same testing capability.
                  As a result of the transfer, Richland incurred unnecessary costs of
                  approximately $550,000. Use of the on-site laboratory for groundwater
                  samples would allow Richland to better use $525,000 annually.




Page 1                                                  Introduction And Objective/
                                                        Conclusions And Observations
         In our opinion, the matters discussed in this report represent internal control
         weaknesses that Richland should consider when preparing its yearend
         assurance memorandum on internal controls.




                                             ______/signed/_________
                                             Office of Inspector General




Page 2                                         Conclusions And Observations
Utilization Of Hanford Site Analytical Laboratory Capabilities
Use Of On-Site          In two instances the use of on-site analytical laboratory capabilities
Analytical Laboratory   was not maximized.
Capabilities Not
Maximized                    Unneeded Expansion Of Tank Waste Vapor Analytical Capability

                        Richland expanded on-site tank waste vapor analytical capabilities when it
                        transferred the analytical work from one on-site laboratory to another. For
                        FYs 1994-1996, the Battelle-Pacific Northwest National Laboratory
                        (Battelle) analyzed tank waste vapor samples. For FY 1997, Richland
                        transferred the analyses to Numatec Hanford Company's (Numatec)
                        laboratory and directed it to acquire the necessary capabilities to do the
                        work. Richland directed this expansion even though Battelle had the
                        capability and capacity to continue to perform the required analyses. In FY
                        1997, in fact, Richland had the Battelle laboratory analyze samples from 28
                        of the 42 tanks characterized.
                        The characterization program then began to decline. In FY 1998, the
                        Numatec laboratory characterized only 10 tanks (Battelle characterized
                        none) and there were no characterizations scheduled for FY 1999.

                               Unused On-Site Groundwater Monitoring Analytical Capability

                        Richland had on-site capability at a Waste Management Hanford (Waste
                        Management) laboratory to perform the analyses needed by
                        the groundwater monitoring program. During the first quarter of FY 1997, in
                        fact, Waste Management submitted a proposal to perform the analyses for
                        less cost. Site contractors continued, however, to use the off-site laboratory.
                        This left the on-site capability unused.
DOE Goal: Maximize
Resources And           DOE set forth the goals of maximizing resources and reducing costs
Reduce Costs            in its 1997 Strategic Plan and FY 1999 Revised Final Performance Plan.
                        These documents were submitted under the Government Performance and
                        Results Act (GPRA) of 1993. GPRA, which is intended to improve Federal
                        program effectiveness, requires each agency to prepare a strategic plan (to
                        be updated and revised every
                        three years) that states the general goals and objectives of program activities.
                        It also requires annual performance plans in which each agency provides
                        information on performance to be achieved during a particular year.




Page 3                                                                          Details Of Finding
Inaccurate Cost         The unneeded expansion of the vapor analytical capability and the unused
Analysis And Untimely   capability for groundwater monitoring analyses occurred because Richland
Decisionmaking          based its decision to expand laboratory capabilities
                        on a flawed analysis and had not acted timely on Waste Management's
                        proposal.

                                                   Flawed Cost Analysis

                        Richland directed the transfer of tank waste vapor analyses based on a cost
                        comparison that showed Numatec's cost to be lower than Battelle's.
                        Richland's cost comparison was flawed, however, because it was not based
                        on the best available data. That is, Richland's comparison:

                           •   did not consider acquisition and startup costs of $187,000 for the
                               Numatec laboratory and ramp down costs of $227,000 for the
                               Battelle laboratory;

                           •   did not exclude the indirect costs that would continue regardless of
                               which laboratory did the work. Our analysis showed that when
                               indirect costs were excluded, Battelle's direct costs were $136,000
                               less than Numatec's; and,

                           •   compared Numatec's costs to perform FY 1997 tests against
                               Battelle's costs, which included both FY 1997 workscope and
                               $252,000 of workscope carried over from FY 1996. When Battelle
                               submitted a cost proposal for FY 1997 work only, Richland did not
                               use the proposal in its cost comparison.

                                                 Untimely Decisionmaking

                        The on-site capability for groundwater monitoring analyses was left unused
                        because Richland did not act timely on Waste Management's proposal.
                        When the proposal was received, Richland and its contractors had concerns
                        about the future of Waste Management's on-site laboratory. The primary
                        concern—whether the laboratory would continue to exist—was resolved
                        after the proposal was received when Richland determined that this
                        laboratory was required to meet mission needs. Another concern was the
                        possible privatization of the laboratory. However, a final decision on
                        privatization still had not
                        been made two years after Richland received the proposal and Richland had
                        missed the opportunity to reduce its costs during those two years.


Page 4                                                                       Details Of Finding
Program Savings   If it had not transferred the tank waste vapor program from Battelle
                  to Numatec, Richland could have saved (1) $414,000 in ramp-up and ramp-
                  down costs and (2) the $136,000 direct cost difference between the Battelle
                  and Numatec proposals had Battelle performed all of the proposed FY
                  1997 vapor sample analyses rather than only 28 out of
                  42. In addition, Richland could potentially better use $525,000 per
                  year by adopting the Waste Management proposal to perform the analytical
                  work for the groundwater monitoring program on-site. This is the difference
                  of $380,000 between Waste Management's proposed costs and the off-site
                  laboratory's costs and the $145,000 difference between Waste
                  Management's and Battelle's costs for sample management. Better use
                  would result from applying the savings to other program activities.
                  Achievement of these savings would further demonstrate Richland's
                  commitment to DOE's GPRA goals of reducing costs and maximizing
                  resources.
RECOMMENDATIONS
                  We recommend that Richland and the Office of River Protection (River
                  Protection) Managers ensure that:

                  1. cost analyses are performed using the best available data before making
                     decisions affecting Site programs; and,

                  2. decisions on proposals involving analytical laboratories are made timely.

MANAGEMENT        Richland and River Protection, which was given responsibility for tank waste
REACTION          matters in FY 1999, concurred with both recommendations.

                  Regarding Recommendation 1, Richland's Financial Management Division
                  has initiated an effort to review major on-site services to determine whether
                  these services can be performed more economically on-site or by
                  commercial entities. Once the review is completed, Richland and River
                  Protection will issue a site-wide catalog listing the various services that will
                  be mandatory. Regarding Recommendation 2, Richland and River
                  Protection agreed that all future analytical laboratory service proposals will
                  be reviewed in a timely manner.

                  River Protection officials stated that the transfer of tank waste vapor
                  characterization from Battelle to Numatec was necessary in order to meet
                  quality assurance requirements of the contract. River Protection officials
                  stated that the characterization reports provided by Battelle
                  did not contain the data on quality assurance measures required by Richland.


Page 5                                               Recommendations And Comments
AUDITOR COMMENTS   Richland's and River Protection's concurrences are responsive to the
                   recommendations.

                   In reviewing documentation provided by River Protection officials,
                   we found that the tank waste vapor characterization program had a number
                   of quality assurance problems. However, these problems primarily involved
                   other laboratories and the contractor in charge of
                   the program, not Battelle. According to River Protection officials,
                   the data on quality assurance measures was not included in Battelle's reports
                   because Westinghouse Hanford Company, the contractor in charge of the
                   program at the time, did not put the requirement for the data into the
                   Statement of Work given to Battelle. According to the Battelle vapor
                   analyses manager, Battelle informed Richland that the quality assurance data
                   was available at an additional cost of $125,000 for 60 reports already
                   completed.




Page 6                                              Recommendations And Comments
Appendix 1
SCOPE         The audit was performed from February 2 through August 2, 1999,
              at: Fluor Daniel Hanford, Inc. (Fluor Daniel), the managing and integrating
              contractor for the Project Hanford Management Contract; Bechtel Hanford,
              Inc. (Bechtel), the environmental restoration contractor; Battelle, the
              management and operating contractor for the Pacific Northwest National
              Laboratory; BNFL, Inc., contractor for the Tank Waste Remediation
              System privatization project; and Richland's offices. In performing the audit,
              we reviewed five instances where Richland had transferred an analytical
              program from one laboratory
              to another or a transfer had been proposed.
METHODOLOGY
              To accomplish the audit objective we:

                  •   interviewed Richland and contractor personnel;

                  •   reviewed laws, regulations, and contractual requirements;

                  •   reviewed budgets and expenditures;

                  •   evaluated expansion of analytical laboratory capabilities;

                  •   reviewed cost analyses performed by Richland and Site contractors;

                  •   performed comparative cost analyses; and,

                  •   evaluated Richland and contractor efforts to integrate Site analytical
                      laboratories.

              The audit was performed in accordance with generally accepted government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Accordingly, we assessed Richland and
              contractor controls over the use of analytical laboratory capabilities.
              Because our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of our audit.
              We did not conduct a reliability assessment of computer-processed data
              because only a very limited amount of such data was used during the audit.
              On August 18, 1999, we discussed the Draft Report with River Protection's
              Assistant Manager for Tank Waste Storage & Retrieval and a representative
              of Richland's Contract Finance Review Division. Richland waived any
              further exit conference.

Page 7                                                      Scope And Methodology
Appendix 2
OTHER MATTERS                      Inconsistent Use Of Performance Goals

                Richland used performance goals inconsistently in attempting to achieve best
                use of its laboratories through laboratory integration.
                The Contract Reform Team recommended that contractors be
                given performance goals and incentives for meeting those goals.
                Accordingly, in FY 1997 Richland gave Fluor Daniel a performance goal to
                integrate its analytical laboratories. Richland also gave Fluor Daniel a stretch
                performance goal to integrate the analytical laboratories of Battelle and
                Bechtel. While Fluor Daniel successfully integrated
                its laboratories, it was unsuccessful in integrating the Battelle and Bechtel
                laboratories. The lack of success can be partially attributed to Richland not
                giving Battelle and Bechtel performance goals similar to Fluor Daniel's.
                Similar goals were needed because Fluor Daniel had no control over these
                two contractors.

                                Hanford Analytical Policy Board's Ability To
                                      Lower Costs Could Be Limited

                In FY 1997, Richland supported the creation of the Hanford Analytical
                Policy Board (Board) to provide a unified approach to analytical laboratories
                and thereby lower costs and improve service. In reviewing the Board's
                charter, we noted two factors that could limit the Board's ability to achieve
                these goals. First, the Board's voting members represented only Site
                contractors. Richland was represented by a nonvoting member. Second,
                proposals that came to the Board needed unanimous approval to be
                implemented. Thus, a contractor that believed that a proposal did not benefit
                its own interest could block a proposal that could benefit DOE.




Page 8                                                                      Other Matters
Appendix 3
    RELATED OFFICE OF INSPECTOR GENERAL AND RICHLAND OPERATIONS OFFICE
                                  REVIEWS


This review concerned Richland and its contractors' expansion of analytical laboratory capabilities. Our review
identified issues involving Richland/contractor coordination and use of assets, cost analyses, and performance
goals. Prior Office of Inspector General and Richland reviews related to similar issues are listed below.

•    Hanford Site Contractors' Use of Site Services, WR-B-99-03, March 11, 1999

     Contractors acquired telecommunications, copying, and photography services even though Site services had
     enough capacity to respond to contractors' needs.

•    Review of Control of the Spread of Radioactive Contamination Due to Biological Transport on the
     Hanford Site, DOE/RL-98-77, November 1998

     Richland determined that it needed to issue policy to control the spread of radioactive contamination and to
     ensure coordination exists among its management groups; the Office of Environment, Safety and Health; and
     other Richland line organizations.

•    Project Hanford Management Contract Costs and Performance, DOE/IG-0430, November 5, 1998

     Although Richland provided Fluor Daniel with a performance measure containing a quantitative stipulation to
     create 200 jobs by the end of FY 1997, the measure lacked necessary qualitative characteristics needed to
     ensure that jobs created met the Management Contract's goal of stabilizing and diversifying the economy.

•    Audit of Renovation and New Construction Projects at Lawrence Livermore National Laboratory,
     WR-B-97-06, June 9, 1997

     The Oakland Operations Office allowed Livermore to pursue three construction projects because it had not
     ensured that the laboratory had performed cost and benefit analyses of all alternatives or established
     benchmarks to assess reasonableness of costs.

•    Audit of the Use of Hanford Site Railroad System, WR-B-97-04, March 20, 1997

     The Site's railroad system was not fully used because it was not integrated into Site activities.




Page 9                                                           Related Office Of Inspector General And
                                                                 Richland Operations Office Reviews
•   Audit of Groundwater Monitoring at Hanford, WR-B-97-03, November 15, 1996

    Site well monitoring activities by three principal contractors overlapped and resulted in
    duplicative groundwater monitoring activities.

•   Audit of the Richland Operations Office Site Characterization Program, DOE/IG-0368,
    March 28, 1995

    The audit disclosed that neither DOE nor Richland evaluated changes to Site characterization programs to
    ensure that program benefits justified the increased cost.

•   Audit of Light Vehicle Fleet Management in the Department of Energy, DOE/IG-0362,
    December 5, 1994

    DOE's operations offices' vehicle fleets were underused because the operations offices did not
    take an active role in ensuring contractors effectively monitored and managed vehicle utilization.

•   Audit of Equipment Use and Repair at the Hanford Site, WR-BC-93-1, March 8, 1993

    The Site management and operating contractor had not coordinated the use of underutilized equipment.




Page 10                                                        Related Office Of Inspector General And
                                                               Richland Operations Office Reviews
                                                                             Report No.: WR-B-00-01


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                Office of Inspector General (IG-1)
                U.S. Department of Energy
                Washington, D.C. 20585
                ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
  The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the following
                                                      address:


                     U.S. Department of Energy Office of Inspector General Home Page
                                          http://www.ig.doe.gov


        Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
